               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Postal Service-Operated Retail
     Facilities Discontinuance Program

                       Audit Report




                                              December 1, 2011



Report Number EN-AR-12-002
                                                                      December 1, 2011

                                              Postal Service-Operated Retail Facilities
                                                             Discontinuance Program

                                                          Report Number EN-AR-12-002



IMPACT ON:
U.S. Postal Service retail optimization       integrated economic modeling. Lastly,
efforts.                                      the Postal Service made improvements
                                              in the emergency suspension process;
WHY THE OIG DID THE AUDIT:                    however, due to data limitations, we
The Postal Service issued new                 were unable to assess compliance of
procedures for the discontinuance of          prior suspensions with established
Postal Service-operated retail facilities.    policy.
Subsequently, the Postal Service
applied the new procedures to begin the       WHAT THE OIG RECOMMENDED:
first headquarters-initiated study to         We recommended management
review more than 3,600 offices for            develop an integrated retail network
discontinuance opportunities. Our             optimization strategy and an economic
objectives were to assess policy              model, improve the reliability of retail
changes for the closing, consolidation,       facilities data, and timely process and
and suspension process; and                   make decisions to approve or
discontinuance opportunities. This            disapprove discontinuance proposals.
report is part of an ongoing series of
retail optimization reviews.                  WHAT MANAGEMENT SAID:
                                              Management generally agreed with our
WHAT THE OIG FOUND:                           recommendations and will take actions
The Postal Service could benefit from         to improve the retail network
an integrated retail network optimization     optimization strategy. In addition,
strategy. While the Postal Service has        management stated they will implement
implemented new regulations and               an economic model by February 2012,
policies, and the Retail Access               maintain accurate retail facilities data,
Optimization Initiative, it is unclear what   and timely review and approve or
specific changes will be made, how long       disapprove discontinuance proposals.
it will take to make them, and                Management added they will complete
anticipated benefits. The new policy          by June 2012, feasibility studies of
expanded authorization to initiate            offices whose operations have been
discontinuance studies to include             suspended prior to fiscal year 2010.
nationwide directives and aligned
procedures for all Postal Service-            AUDITORS’ COMMENTS:
operated retail facilities. However, we       The U.S. Postal Service Office of
found inconsistent application of the         Inspector General considers
criteria for selection of facilities for      management’s comments responsive.
discontinuance studies. In addition, the
criteria could benefit from an objective      Link to review the entire report
December 1, 2011

MEMORANDUM FOR:            DEAN J. GRANHOLM
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General for Mission Operations

SUBJECT:                   Audit Report – Postal Service-Operated Retail Facilities
                           Discontinuance Program (Report Number EN-AR-12-002)

This report presents the results of our audit of the Postal Service-Operated Retail
Facilities Discontinuance Program (Project Number 11XG035EN000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, director,
Retail, Business, and International or me at 703-248-2100.

Attachments

cc: James J. Boldt
    Kenneth N. Hollies
    Kevin V. Romero
    Melissa A. Speelman
    Corporate Audit and Response Management
Postal Service-Operated Retail Facilities                                                                          EN-AR-12-002
 Discontinuance Program




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Nationwide Management of Retail Optimization Initiatives .............................................. 3

Regulations and Policy .................................................................................................... 3

   Decision to Study ......................................................................................................... 3

   Application of Procedures ............................................................................................ 4

Discontinuance Opportunities ......................................................................................... 5

   Retail Access Optimization Initiative ............................................................................ 5

   District-Initiated Studies ............................................................................................... 8

Emergency Suspension .................................................................................................. 8

Recommendations ........................................................................................................ 10

Management’s Comments ............................................................................................ 11

Evaluation of Management’s Comments ....................................................................... 11

Appendix A: Additional Information ............................................................................... 13

   Background ............................................................................................................... 13

   Objectives, Scope, and Methodology ........................................................................ 13

   Scope Limitation ........................................................................................................ 14

   Prior Audit Coverage ................................................................................................. 15

Appendix B: Management’s Comments ........................................................................ 17
Postal Service-Operated Retail Facilities                                                             EN-AR-12-002
 Discontinuance Program



Introduction

This report presents the results of our review of the U.S. Postal Service’s Post Office™
(PO) closing and consolidation process for retail facilities (Project Number
11XG035EN000). The objectives of this audit, which includes both self-initiated aspects
as well as congressionally requested analyses, were to assess changes in Handbook
PO-101 for the closing and consolidation process, discontinuance opportunities, and the
process for suspending operations at retail facilities. This audit addresses strategic,
operational, and financial risks and is part of an ongoing series of retail optimization
reviews.

The Postal Service recognized the need for a comprehensive redesign of their vast
network and identified network optimization as a key objective in their March 2010
Action Plan.1 In recent months, the Postal Service has initiated several actions to
optimize its retail facility network. Specifically, on March 31, 2011, the Postal Service
proposed changes to regulations2 to increase its flexibility to pursue retail network
optimization. The changes focus on three key elements: enhancing transparency and
public participation, increasing the efficiency of the discontinuance process, and
ensuring sound business judgment when making decisions. On July 14, 2011, the
Postal Service published the final regulations and incorporated them into its policies and
procedures.3 On July 26, 2011, the Postal Service announced the new Retail Access
Optimization Initiative (RAOI) made up of 3,652 Postal Service-operated retail offices to
be studied for discontinuance opportunities. In addition, the Postal Service is reviewing
728 district-initiated studies concurrent with the RAOI.

Conclusion

The Postal Service could benefit from an integrated retail network optimization strategy
that includes short- and long-term plans, milestones, and goals. While the Postal
Service has implemented new regulations, policies, and procedures, and the RAOI, it is
unclear what specific changes will be made, how long it will take to make them, and
anticipated benefits. Management stated they have a strategy to expand alternate
channel access as part of their plan to reduce the retail infrastructure but did not
establish specific goals for closing and consolidation initiatives because each facility's
discontinuance study must be considered individually within the context of the
community.

Handbook PO-101 expanded the authorization to initiate discontinuance studies from
Postal Service Headquarters (HQ) management (top-down approach), aligned
procedures for all Postal Service-operated retail facilities, and added factors to consider
for identifying retail offices for the discontinuance study. However, due to data
1
  Ensuring a Viable Postal Service for the Future: An Action Plan, March 2010.
2
  39 C.F.R. Part 241, Post Office Organization and Administration: Establishment, Classification, and Discontinuance,
July 14, 2011.
3
  Handbook PO-101, Postal Service-Operated Retail Facilities Discontinuance Guide, July 14, 2011.
                                                           1
Postal Service-Operated Retail Facilities                                                             EN-AR-12-002
 Discontinuance Program


inaccuracies or incomplete information, we found inconsistent application of the criteria
for selection of facilities for discontinuance studies. For example:

   Eight of the 164 randomly selected Group 14 offices (5 percent) do not meet the
    annual revenue criteria of less than $27,500.
   Thirty-two of the 123 randomly selected Group 25 offices (26 percent) do not meet
    the criteria of having five or more access points within 2 miles.
   One of the 123 randomly selected Group 2 offices is a delivery unit with no retail
    operations.
   Sixty-three of the 93 randomly selected Group 36 offices (68 percent) do not meet
    the criteria of having five or more access points within ½ mile.

Also, we found the top-down criteria used to select the offices could benefit from an
objective integrated economic modeling. The economic modeling should determine
potential revenue sales by geographic and demographic data and estimate revenue
loss that may result from closing a retail facility.

Developing and implementing an integrated retail network strategy, improving facility
data, gathering appropriate economic data, and timely processing discontinuance
proposals can better position the Postal Service for success in retail optimization and
raise stakeholders’ confidence that it will make transparent, equitable, and fact-based
decisions. Retail optimization is also a key factor for the Postal Service in achieving two
of its core business strategies — improving the customer experience and becoming a
leaner, faster, and smarter organization.

Postal Service Actions – Management has improved the process for managing the retail
facility closing and consolidation process and stated they are planning to use economic
modeling for the retail strategy and global mapping. In addition, management has
developed a strategy to expand alternate access as part of their plan to reduce the retail
infrastructure, which will become more defined after the RAOI is completed.
Furthermore, management has implemented an expedited process to accelerate the
closing of offices whose operations were suspended prior to fiscal year (FY) 2010.




4
  Group 1 – offices earning less than $27,500 in annual revenue and have less than 2 hours of workload daily.
5
  Group 2 – offices earning less than $600,000 in annual revenue and have five or more access points within 2 miles.
6
  Group 3 – offices earning less than $1 million in annual revenue and have five or more access points within ½ mile.



                                                          2
Postal Service-Operated Retail Facilities                                                       EN-AR-12-002
 Discontinuance Program



Nationwide Management of Retail Optimization Initiatives

While management has taken unprecedented action implementing the RAOI and
district-initiated studies, additional efforts are needed to communicate and direct an
integrated retail network optimization strategy. The Postal Service did not provide an
overall strategy for optimizing the retail network, milestones, or goals. Consequently, it
is unclear what specific changes would be made, how long it would take to make them,
and the anticipated benefits. Prior U.S. Postal Service Office of Inspector General (OIG)
work7 has shown that using economic modeling can help optimize the retail network by
locating and sizing facilities to maximize public benefits and matching the demand for
retail services to the cost of providing them. Management stated they are planning to
use economic modeling for retail strategy and global mapping. Management added they
have a strategy to expand alternate channel access as part of their plan to reduce the
retail infrastructure, but did not establish specific goals for the RAOI because each
facility's discontinuance study must be considered within the context of the community.

In addition, improving facility data, gathering appropriate economic data, and making
timely decisions to approve or disapprove discontinuance proposals can better position
the Postal Service for success in retail optimization and raise stakeholders’ confidence
that it will make transparent, equitable, and fact-based decisions.

Regulations and Policy

Implementation of new regulations and policy reflects the Postal Service’s determination
to address some of the institutional barriers that have inhibited modernizing the retail
network. These changes should help enhance transparency and strengthen the
accountability of retail optimization efforts. Significant changes include instituting a
strategic (top-down) approach to initiate discontinuance studies and aligning procedures
for all Postal Service-operated retail facilities. Also, management has incorporated five
prior OIG audit recommendations8 on the discontinuance process into the regulations
and policy changes.

Decision to Study

Under the previous policy, only the district manager could initiate a discontinuance
study, a case-by-case (bottom-up) approach that did not allow for a comprehensive,
consistent optimization program across the retail network. The new policy integrates the
benefits of HQ optimization framework with local expert validations to ensure
discontinuance opportunities are feasible. The district manager or the responsible HQ
vice president or his or her designee may initiate a discontinuance study for the
following circumstances: postmaster vacancy, emergency suspension, earned

7
  Analyzing the Postal Service’s Retail Network Using an Objective Modeling Approach (Report Number RARC-WP-
10-004, dated June 14, 2010).
8
  University Station, Eugene, OR Consolidation (Report Number EN-AR-11-007, dated July 20, 2011) and Stations
and Branches Optimization and Consolidation Initiative (Report Number EN-AR-10-005, dated August 17, 2010).


                                                      3
Postal Service-Operated Retail Facilities                                                             EN-AR-12-002
 Discontinuance Program


workload, insufficient customer demand, reasonable alternate access, and incorporation
of two communities.

While HQ may initiate a discontinuance study, all decisions related to the facility-specific
discontinuance proposal remain the responsibility of local management. The district
manager is also responsible for the accuracy and completeness of the facility-specific
proposal before submission to HQ for review and final determination. If recommended
by the district manager, the responsible HQ vice president makes the final
determination to discontinue the operations of a PO, station, or branch.

Application of Procedures

Also under the previous policy, the Postal Service used one discontinuance process for
POs and another for stations and branches. Although these processes were similar,
they differed in regard to public posting requirements, input procedures, and appeals.
The Postal Service recognized that the public does not see a difference between POs,
stations, and branches. Hence, the new policy aligns discontinuance procedures for
POs, stations, and branches, resulting in a single policy. It also makes a clear distinction
between Postal Service-operated facilities and contractor-operated facilities, which are
no longer subject to the Postal Service’s discontinuance policy.

To enhance transparency and public input, the Postal Service expanded guidance to
ensure notices and questionnaires reach affected customers, community meetings are
held, and proposal and comment notices are posted and available upon customer
request. The Postal Service did not change procedures on appeal rights for customers
served by stations and branches. The Postal Service believes it does not have the
authority to extend procedural requirements in 39 U.S.C. § 404(d)(5) to appeal any
proposed closings of stations and branches to the Postal Regulatory Commission
(PRC).

As part of our analysis, we obtained from the Postal Service 252 letters from federal and
state legislators, the PRC, management organizations, a lessor organization,9
employees, and customers regarding the proposed regulations. We reviewed
468 comments from those letters on how the proposed regulations affected them (see
Table 1). Our analysis found that the Postal Service considered and incorporated many
of the comments in the new regulations. However, the Postal Service is in the process
of consulting with general counsel regarding the redefinition of consolidation10 and
staffing of POs11 and, therefore, decided to defer these changes.


9
  The OIG received and considered a July 27, 2011, letter from the Association of U.S. Postal Lessors expressing
concerns that the Postal Service does not search for suitable alternate quarters in the community prior to the
expiration or cancellation of a lease.
10
   The proposed rule stated that the conversion of an independent PO to a subordinate Postal Service-operated retail
facility would no longer constitute a consolidation that triggers discontinuance proceedings subject to 39 C.F.R Part
241.
11
   The proposed rule stated that POs may be managed by postmasters, as is commonly the case, or by other Postal
Service employees.


                                                          4
   Postal Service-Operated Retail Facilities                                                            EN-AR-12-002
    Discontinuance Program


   Public debates loom over retail facility closures and consolidations because of concerns
   about how these actions might affect jobs, service, employees, and communities,
   particularly in small towns or rural areas. These concerns have led communities and
   members of Congress to question whether the Postal Service truly considers public
   comments obtained from community meetings and questionnaires. In prior OIG
   reviews,12 we found the Postal Service collected and summarized public comments in
   discontinuance proposals. In addition, the Postal Service used form letters to respond to
   those who provided a return address. Federal statue and Postal Service policy require
   management to post discontinuance proposals and make them available for public
   review.

           Table 1: Analysis of Comments Received for the Proposed Regulations

                                                  Staffing
                                                  of Post  Public
                                                   Office Comment              Effect of      Access
              Redefinition         Role of                  and                Overall          to           Site-
Economic          of                Vice                   Posting             Service        Postal        Specific
 Impact      Consolidation        President                Period              Network        Service      Concerns

  15                118                17            67             25             12           159             54

   Discontinuance Opportunities

   Although the RAOI and the district-initiated studies may be viable options for the Postal
   Service to reduce over 4,00013 facilities in the retail network, we found issues with
   application of the criteria used to select facilities for discontinuance studies. In addition,
   we found the Postal Service included units without retail functions in the RAOI. On
   September 21, 2011, the Postal Service reported to the PRC that, as of August 31,
   2011, five annexes were erroneously included on the original RAOI list. Further,
   according to the Postal Service, the proximity of the nearest PO was based on
   geographic coordinate distance, which management stated is a better measurement for
   potential impact on customers. Management added that to assess impact on customers,
   it would need the distance from the customer’s home to the nearest PO, not the
   distance from the losing facility to the nearest PO.

   Retail Access Optimization Initiative

   The Postal Service designed the RAOI to include a cross-section of POs, stations, and
   branches. As such, management established three HQ-defined criteria for the selection
   of Postal Service-operated facilities for the RAOI as follow:

   12
      University Station, Eugene, OR Consolidation (Report Number EN-AR-11-007, dated July 20, 2011) and Stations
   and Branches Optimization and Consolidation Initiative (Report Number EN-AR-10-005, dated August 17, 2010).
   13
      On September 21, 2011, the Postal Service filed with the PRC that, as of August 31, 2011, 84 of the 3,652 POs,
   stations, and branches were no longer being considered for closure under the RAOI. In addition, the Postal Service
   reported that five of the 84 offices were erroneously included on the original RAOI list.


                                                            5
Postal Service-Operated Retail Facilities                                                               EN-AR-12-002
 Discontinuance Program


    GROUP 1: Less than $27,500 in annual revenue and less than 2 hours of workload14
     daily.

    GROUP 2: Less than $600,000 in annual revenue and five or more access points15
     within 2 miles.

    GROUP 3: Less than $1 million in annual revenue and five or more access points
     within ½ mile.

In addition, the Postal Service identified a fourth group of offices for inclusion in the
RAOI. The fourth group included district-initiated discontinuance studies started under
the old Handbook PO-101 policy. These studies have not reached the community
meeting stage. Therefore, management expanded the RAOI to include these offices for
the application of new discontinuance procedures.

The Postal Service provided information on the RAOI offices by the four groups on two
public websites, USPS.com® and PRC.gov, on July 26 and 27, 2011, respectively. We
noted that composition of the four groups differs between the two public postings.
Management reported to the PRC that 265 offices were not subjected to the HQ-defined
criteria. However, according to the Postal Service press release, only 19 offices were
not subjected to the HQ-defined criteria (see Table 2). Management stated the RAOI list
posted on USPS.com was simplified for the public.




14
   Workload is the combined value for the mail distribution, PO Box™, delivery, and retail window service activity at a
facility.
15
   Access points includes Postal Service-operated and contractor-operated facilities, approved shippers, and
consignment locations.


                                                           6
Postal Service-Operated Retail Facilities                                     EN-AR-12-002
 Discontinuance Program



                      Table 2: Analysis of the RAOI Office Composition

                                                                        Reported to the
                                                     Press Release            PRC
                                                      (USPS.com,           (PRC.gov,
                                                     July 26, 2011)      July 27, 2011)
Group 1:
   Less than $27,500 in annual revenue               3,061 offices       2,825 offices
   Less than 2 hours of workload daily
Group 2:
   Less than $600,000 in annual revenue               384 offices          384 offices
   Five or more access points within 2 miles
Group 3:
   Less than $1 million in annual revenue             188 offices         178 offices
   Five or more access points within ½ mile
Group 4:                                                                  265 offices -
   No HQ-defined criteria                                               discontinuance
                                                       19 offices -
                                                                         studies started
                                                        currently
                                                                          under the old
                                                       suspended
                                                                            Handbook
                                                                         PO-101 policy

                            Total                     3,652 offices      3,652 offices

We randomly selected and tested offices in groups 1, 2, and 3 for discontinuance
studies and found that some did not meet the HQ-defined criteria. Specifically:

   Eight of the 164 Group 1 offices (5 percent) we randomly selected do not meet the
    annual revenue criteria of less than $27,500.

   Thirty-two of the 123 Group 2 offices (26 percent) we randomly selected do not meet
    the criteria of five or more access points within 2 miles.

   One of the 123 Group 2 offices we randomly selected is a delivery unit with no retail
    operations.

   Five of the 123 Group 2 offices (4 percent) we randomly selected do not meet the
    annual revenue criteria of less than $600,000.

   Sixty-three of the 93 Group 3 offices (68 percent) we randomly selected do not meet
    the criteria of five or more access points within ½ mile.

   One of the 93 Group 3 offices we randomly selected does not meet the annual
    revenue criteria of less than $1 million.




                                             7
Postal Service-Operated Retail Facilities                                                            EN-AR-12-002
 Discontinuance Program


In addition, while the Postal Service did not establish a proximity criteria for Group 1
offices, we randomly selected and tested 164 offices and found seven offices
(4 percent) are not within 15 miles of other access points.16

District-Initiated Studies

The Postal Service began 728 district-initiated studies before the start of the RAOI.
These studies have advanced to or beyond the proposal phase at the time of the RAOI.
We reviewed the August 3, 2011, web-based discontinuance tracking17 report for the
status of these studies (see Chart 1) and identified that 103 of the 133 proposals
submitted to HQ recommending discontinuance did not receive final determinations by
the estimated dates. Management established 5 days as the new milestone for
decisions to approve or disapprove a discontinuance proposal. In addition, we selected
and tested 142 offices and found two offices are not within 15 miles of other access
points.




Emergency Suspension

While suspension of PO operations is not governed by federal statues, Postal Service
policy provides circumstances that may justify an emergency suspension as follows:

    A natural disaster.
    Termination of a lease agreement when no suitable alternate quarters are available
     in the community.
    Lack of qualified personnel to operate the office.
    Severe damage to, or destruction of, the office.
    Lack of adequate measures to safeguard the office or its revenues.
16
   The OIG reported the optimal average distance between rural POs is 16 miles in Analyzing the Postal Service’s
Retail Network Using an Objective Modeling Approach (Report Number RARC-WP-10-004, dated June 14, 2010).
17
   Change, Suspension, Discontinuance Center Program.


                                                         8
Postal Service-Operated Retail Facilities                                                             EN-AR-12-002
 Discontinuance Program



The policy further instructs the district manager to notify HQ, local officials, and
customers with the effective date, reason for suspension, where alternate services are
available, and a contact for more information. It also states the district manager must
decide to secure alternate quarters, take necessary corrective action, or initiate a
discontinuance study within 90 days of an emergency suspension.

Historically, offices remained in emergency suspension status for an extended period
because the Postal Service did not effectively administer such offices due to
deficiencies in the quality of data in their tracking systems. From FYs 2000 to 2009,
Postal Service records show that the operations of 421 offices have been suspended
(see Chart 2).




The justifications for these suspensions were not available, because the Postal Service
did not ensure employees documented basic data such as justification for the
suspension and a plan of action and restore or close dates in the tracking system.
According to the tracking system data, about 73 percent (308 of 421) of the suspended
offices were in Eastern, Western, and Southwest area offices (see Chart 3). Although
the Postal Service implemented a new robust web-based program in 2010 for
administering and processing emergency suspensions, the Postal Service manually
tracks offices suspended before FY 2010.18 HQ did not require field offices to enter
historical data into the new web-based discontinuance program. Consequently, due to
data limitations, we were unable to assess compliance of prior suspensions with
established policy.




18
  According to an ongoing PRC public inquiry (PI2010-1), in May 2010 the Postal Service filed a list of offices
suspended for periods during January 2004 through December 2009. Of the justifications on this list, termination of
lease agreements was the most common cause.


                                                          9
Postal Service-Operated Retail Facilities                                     EN-AR-12-002
 Discontinuance Program




In September 2010, the Postal Service reported that 262 retail offices suspended in
FY 2010 and earlier need to be officially closed in the Postal Service systems.
Management added that they have developed an expedited process to accelerate the
closing of these offices. According to Postal Bulletins published in FY 2011 (through
July 28, 2011) management closed 101 retail offices whose operations were effectively
closed for periods ranging from FYs 1987 to 2009.

The new Handbook PO-101 added two procedural changes that are significant
departures from previous guidance. Specifically, whenever possible, local mangement
should initiate the discontinuance process in advance of the circumstances prompting
the emergency suspension to allow opportunities for public input and continue
operations as long as necessary to reach an outcome in the discontinuance process.
Also, the responsible area or HQ vice president may override the suspension review
team’s recommendation to reopen a retail facility and keep a suspended office closed.
The new policy also added two new circumstances that may justify a suspension:
irreparable damage to the office and challenge to the sanctity of the mail.

The new policy emphasizes timely decisions and customer participation. According to
the August 3, 2011, web-based discontinuance tracking report, 153 suspended offices
were in the queue for a discontinuance study. Management migrated 110 of the
153 offices to the RAOI or district-initiated studies. Of the 110 offices, 74 percent (81
offices) of the justifications prompting an emergency suspension were termination of
lease agreements and lack of qualified personnel. Twenty-six percent (29 offices) were
suspended due to severe damage to the office and irreparable damage to the office.

Recommendations

We recommend the vice president, Delivery and Post Office Operations:

1. Develop and implement an integrated retail network optimization strategy to include
   specific goals and milestones.

2. Develop and implement an economic model that determines market demand,
   including projected financial, geographic, market, and demographic data.



                                            10
Postal Service-Operated Retail Facilities                                         EN-AR-12-002
 Discontinuance Program


3. Improve the reliability and usefulness of retail facilities data by validating, correcting,
   and updating information in the database.

4. Approve or disapprove discontinuance proposals within established milestones.

5. Direct headquarters employees to assess the closing of offices whose operations
   have been suspended before fiscal year 2010.

Management’s Comments

Management generally agreed with the findings and recommendations. In regard to
recommendation 1, management stated they do evaluate data and national-level
information to identify candidate offices for possible discontinuance, but it is ultimately
the responsibility of field management to conduct feasibility studies. Management will
direct the conduct of field management or set expectations for field management to
achieve. Management added setting specific goals and milestones impede the progress
and the process for the RAOI.

Management agreed with recommendation 2 and stated they will implement an
economic model by February 2012 to predict customer demand based on accessibility
of service. In regard to recommendations 3 and 4, management agreed to continuously
improve on retail facility data and timely review and approve or disapprove
discontinuance proposals. Management agreed with recommendation 5 and stated they
will complete by June 2012, feasibility studies for offices whose operations have been
suspended before FY 2010. Management added field management should conduct
feasibility studies of suspended facilities as soon as possible so that affected
communities’ expectations can be best managed.

See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Regarding setting specific goals and milestones for the ROAI, we understand that
Postal Service regulations state that HQ may initiate a discontinuance study, but all
decisions related to the facility-specific discontinuance proposal remain the
responsibility of local management. While there are no Postal Service mandates to
close a specific number of retail offices, we believe that management should develop a
business plan to clearly define the organization’s strategy to close approximately one-
half of its Postal Service operated retail facilities over the next several years. We
acknowledge that management recognized customers’ mailing habits have changed
and the need to look at opportunities to expand alternate channel access and reduce
brick and mortar facilities.




                                              11
Postal Service-Operated Retail Facilities                                     EN-AR-12-002
 Discontinuance Program


Regarding suspended offices, we agreed with management that not all suspended
offices should be closed. The intent of recommendation 5 was for management to
review operations at offices that had been suspended for lengthy periods and to make
timely decisions to either return these offices to operation or initiate discontinuance
studies.

The OIG considers recommendations 1, 2, 3, and 5 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




                                            12
Postal Service-Operated Retail Facilities                                         EN-AR-12-002
 Discontinuance Program


                               Appendix A: Additional Information

Background

In July 2011, the Postal Service issued a new Handbook PO-101. This is the first
revision to the policy since August 2004. Handbook PO-101 provides the framework for
closing and consolidating retail facilities. The Postal Service uses these guidelines to
ensure that retail facility closings and consolidations adhere to federal laws, make
optimum use of available resources, and establish accountability for the discontinuance
decision. These guidelines include standardized instructions, forms, and worksheets to
document the effects on the community and employees, economic savings, and any
other factors. Management also established 138 days as the new milestone to complete
a discontinuance study.

The Postal Service aims to enhance transparency and public participation, increase the
efficiency of the discontinuance process, and ensure sound business judgment when
making decisions. Significant changes include expanding the authorization to HQ
(top-down approach) to initiate discontinuance studies and aligning PO procedures with
those of stations and branches. Process improvements were incorporated in public
notices, input, and emergency suspension procedures.

Using the top-down approach, the Postal Service initiated the RAOI to review over
3,600 offices nationwide for discontinuance opportunities. This initiative is being
conducted concurrent with 728 district-initiated discontinuance studies. In light of the
potential impact to service, on July 27, 2011, the Postal Service asked the PRC for an
advisory opinion on the national service implications of the proposed closures.

Objectives, Scope, and Methodology

Our objectives were to assess changes to Handbook PO-101 for the administration of
the retail facility closing and consolidation process and discontinuance opportunities.
We were also assessing the process for suspending operations at retail facilities. To
accomplish our objectives, we:

   Reviewed applicable policies, procedures, laws, and regulations and consulted with
    OIG counsel.

   Reviewed Government Accountability Office (GAO) and PRC documents related to
    retail facility closures and consolidations.

   Reviewed congressional hearing documents and news articles related to retail
    facility closures and consolidations.

   Analyzed public comments regarding the proposed regulation changes.

   Tested the criteria for selected sites in the RAOI and district-initiated studies.


                                               13
Postal Service-Operated Retail Facilities                                     EN-AR-12-002
 Discontinuance Program



   Analyzed emergency suspensions from FYs 1990 through 2011 and assessed the
    process for suspending operations.

   Interviewed Postal Service officials and participated in RAOI training.

We conducted this performance audit from May through December 2011 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on September 21, 2011, and included
their comments where appropriate.

To assess the reliability of revenue data, we retrieved walk-in and total revenue data
from accounting programs in the Enterprise Data Warehouse application. We assessed
the reliability of alternate access points by verifying PO, automated postal centers®,
consignment, and Approved Postal Providers™ locations on USPS.com®. We
determined that the data were sufficiently reliable for the purposes of this report.

Scope Limitation

During our audit, we examined computer data generated from management’s PO
Discontinuance Tracking System and noted several control weaknesses that
constrained our work. For example, the system had missing or incomplete suspension
justification and status data. As a result, we were unable to assess compliance of prior
emergency suspensions with established policy.




                                             14
      Postal Service-Operated Retail Facilities                                                     EN-AR-12-002
       Discontinuance Program



      Prior Audit Coverage
                                                   Final
                           Report                 Report           Monetary
  Report Title             Number                  Date             Impact           Report Results
University Station,      EN-AR-11-007             7/20/2011        $180,000   The Postal Service followed
Eugene, OR                                                                    applicable federal law and
Consolidation                                                                 Postal Service policies to
                                                                              discontinue University Station
                                                                              operations. However, we
                                                                              identified various concerns with
                                                                              the economic analysis and
                                                                              believe improvements could be
                                                                              made to allow for a more
                                                                              objective evaluation.
                                                                              Management agreed with our
                                                                              findings and recommendations.
Web-Based              EN-AR-11-006(R)            7/7/2011           N/A       The web-based application for
Application for the                                                            the discontinuance of Postal
Discontinuance of                                                              Service-operated retail facilities
Postal                                                                         improves the retail facility closing
Service-Operated                                                               and consolidation process and
Retail Facilities                                                              complies with federal law and
                                                                               Postal Service policies. In
                                                                               addition, the web-based program
                                                                               could reduce current cycle time
                                                                               by approximately 22 percent (up
                                                                               to 62 days), improve the
                                                                               standardization and tracking of
                                                                               retail facility closures and
                                                                               consolidations, and provide
                                                                               management greater visibility
                                                                               over discontinuance activities
                                                                               enterprise-wide. We made no
                                                                               recommendations.
Dire Financial           GAO-11-759T              6/15/2011          N/A      The Postal Service has provided
Outlook and                                                                   alternatives to POs; however, it
Changing Mail Use                                                             has been slow to modernize its
Require Network                                                               network. For the Postal Service
Restructuring                                                                 to be self-sustaining, it needs to
                                                                              significantly reduce its costs to
                                                                              match its revenues. The GAO
                                                                              has suggested the Postal
                                                                              Service revise legal
                                                                              requirements to facilitate
                                                                              network-wide restructuring;
                                                                              improve outreach and the
                                                                              transparency of information used
                                                                              to make decisions; and enhance
                                                                              public input by simplifying rules
                                                                              and requirements so that they
                                                                              are consistent, timely, and easy
                                                                              for the public to understand.



                                                              15
      Postal Service-Operated Retail Facilities                                                  EN-AR-12-002
       Discontinuance Program


Barriers to Retail     RARC-WP-11-            6/9/2011         N/A          The obstacles standing in the
Network                005                                                  way of retail modernization have
Optimization                                                                many sources. These obstacles
                                                                            are statutory, regulatory,
                                                                            political, and institutional.
                                                                            Addressing them is essential to
                                                                            ensuring the success of any
                                                                            optimization and modernization
                                                                            effort.
Foreign Posts’         GAO-11-282             February         N/A          This report examines initiatives
Strategies Could                              2011                          that foreign posts have
Inform U.S. Postal                                                          implemented to improve mail
Service’s Efforts to                                                        delivery and retail networks and
Modernize                                                                   related results and
                                                                            modernization strategies used by
                                                                            foreign posts that improve the
                                                                            Postal Service’s financial
                                                                            condition and customer service.
                                                                            Management generally agreed
                                                                            with the findings and mentioned
                                                                            both its own modernization
                                                                            efforts and the barriers it faces.
Stations and           EN-AR-10-005           8/17/2010        $2,773,043   The Postal Service needs to
Branches                                                                    raise stakeholders’ confidence
Optimization and                                                            that it will make transparent,
Consolidation                                                               equitable, and fact-based
Initiative                                                                  decisions by integrating a
                                                                            strategic approach (top-down)
                                                                            and establishing clear criteria for
                                                                            evaluating discontinuance
                                                                            decisions. Management agreed
                                                                            with the findings,
                                                                            recommendations, and monetary
                                                                            impact.
Analyzing the          RARC-WP-10-            6/14/2010        N/A          By adopting a thorough,
Postal Service’s       004                                                  transparent, and objective
Retail Network                                                              approach to retail modernization,
Using an Objective                                                          the Postal Service can respond
Modeling                                                                    to stakeholder concerns and
Approach                                                                    optimize its retail network.
                                                                            Modernization should not be
                                                                            thought of as solely a cost-saving
                                                                            response to the Postal Service’s
                                                                            financial problems. Instead, it
                                                                            should be seen as a way to meet
                                                                            demand more efficiently and
                                                                            equitably in a way that cuts
                                                                            costs, encourages constant
                                                                            reevaluation and improvement,
                                                                            and aligns the Postal Service’s
                                                                            retail network to the way people
                                                                            live now.




                                                          16
Postal Service-Operated Retail Facilities                        EN-AR-12-002
 Discontinuance Program


                             Appendix B: Management’s Comments




                                            17
Postal Service-Operated Retail Facilities        EN-AR-12-002
 Discontinuance Program




                                            18
Postal Service-Operated Retail Facilities        EN-AR-12-002
 Discontinuance Program




                                            19
Postal Service-Operated Retail Facilities        EN-AR-12-002
 Discontinuance Program




                                            20
Postal Service-Operated Retail Facilities        EN-AR-12-002
 Discontinuance Program




                                            21
